           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     ADMINISTRATIVE FINALITY
    IN THE OLD-AGE, SURVIVORS
    AND DISABILITY INSURANCE
            PROGRAM


    September 2007       A-01-07-27029




 AUDIT REPORT




                     .
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 24, 2007                                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Administrative Finality in the Old-Age, Survivors and Disability Insurance Program
           (A-01-07-27029)


           OBJECTIVE

           Our objective was to assess the impact of the Social Security Administration’s (SSA)
           administrative finality rules on the Old-Age, Survivors and Disability Insurance (OASDI)
           program.

           BACKGROUND

           The OASDI program provides benefits to replace some of the earnings lost due to the
                                                       1
           retirement, disability or death of a worker. These benefits are based on the worker’s
           earnings, averaged over his or her working lifetime. Generally, the higher the earnings,
           the higher the Social Security benefit. The table below provides the number of OASDI
           beneficiaries and the total amount of benefits paid in Calendar Year (CY) 2006, as well
           as estimates for CY 2015:

                                                          Number of             Annual Benefit
                                 Calendar Year
                                                         Beneficiaries            Payments
                             2006 2                           49.1 million        $546.2 billion
                                                3
                             2015 (estimated)                 59.9 million        $949.6 billion
                                      Growth                         22%                   74%




           1
               The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
           2
            SSA, Actuarial Publications: Social Security Beneficiary Statistics, December 20, 2006; Trust Fund
           Data, February 8, 2007.
           3
               SSA, The 2006 OASDI Trustees Report, Tables IV.A3 and IV.B2 (Intermediate Assumptions), May 2006.
Page 2 - The Commissioner

Once SSA determines the payment amount due a beneficiary, that determination may
be reopened and revised later under certain conditions. The discretionary rules that
SSA uses to reopen and revise determinations are known as the rules of administrative
finality. 4

Under administrative finality, SSA will generally revise an incorrect OASDI payment
amount if the error is discovered within 4 years. However, if the error is discovered
after 4 years, the Agency will generally only revise the payment determination if it was
obtained by fraud or similar fault or it was wholly or partially unfavorable to the
beneficiary as a result of a clerical error or error on the face of the evidence. 5

If administrative finality is applied, a revision will only be made when SSA makes a new
payment determination—such as when benefits are converted from disability to
retirement upon a beneficiary’s attainment of full retirement age. If a new determination
is not made, the payment amounts will not be revised and will continue until death.
According to SSA, these rules were created to: (1) protect beneficiaries from the
inconvenience or hardship that could result from the correction of an Agency error, and
                                                6
(2) ease the administration of the program.

In a prior Office of the Inspector General (OIG) review, we estimated SSA incorrectly
calculated the benefits to about 281 beneficiaries (out of a population of 1,560), but
would not revise them because of the administrative finality rules. 7 As a result, about
$8 million more in OASDI benefits was paid to these beneficiaries that will not be
recovered. Also, we estimated an additional $10 million will be paid to these
beneficiaries in the future. (See Appendix B for prior OIG reports related to
administrative finality.)

We initiated this current review to assess the full impact of administrative finality on the
OASDI program. To accomplish our objective, we identified a population of
77,969 OASDI beneficiaries who were receiving benefits as of June 2005 and whose
benefit records indicated that administrative finality was involved. From this population,
we selected a random sample of 275 cases for detailed analysis. (See Appendix C for
more information on our scope, methodology and sample results.)

4
  SSA established these rules under the Commissioner’s authority, which was granted by the Social
Security Act (The Social Security Act § 702(a)(5), 42 U.S.C. § 902(a)(5)). For the Agency’s administrative
finality regulations, see 20 C.F.R. §§ 404.987-996. See also SSA, Program Operations Manual System
(POMS), GN 04000.
5
  20 C.F.R. §§ 404.988(c); see also SSA, POMS, GN 04060.005C. Our review of other agencies’
regulations showed that the Railroad Retirement Board (20 C.F.R. § 261.2(c)(10)) and the Department of
Veterans Affairs (38 U.S.C. 5112(b)(10)) have similar administrative finality rules. However—unlike SSA’s
rules—these Agencies permit revisions to the ongoing payments in certain situations even though
administrative finality prevents revisions to the payments that were issued previously.
6
 SSA, Benefit Authorizer Basic Training Program, Administrative Finality (BA-08, 2003-1), p. 387. See
also SSA, Administrative Message AM-04020, February 3, 2004.
7
    SSA OIG, Benefits Paid to Dually Entitled Title II Beneficiaries (A-01-06-26004), issued August 2006.
Page 3 - The Commissioner

RESULTS OF REVIEW
We estimate SSA identified about 44,230 beneficiaries whose benefits had been
incorrectly calculated, but the Agency did not revise the amounts because of its
administrative finality rules. As a result, we estimate these individuals were paid about
$140.5 million more in OASDI benefits than they otherwise would have been paid had
the errors not occurred. We also estimate about 25,801 of these beneficiaries will be
paid an additional $49.8 million in the future because their ongoing benefits were not
corrected when the Agency identified the calculation errors. 8

Of the 275 beneficiaries in our sample:

 156 (57 percent) were paid more in OASDI benefits than they otherwise would have
  been paid because of administrative finality;
 99 (36 percent) may have received more OASDI benefits because of administrative
  finality, but we were unable to quantify the amount because there was insufficient
  information available; and
 20 (7 percent) were unaffected by administrative finality. 9

BENEFITS NOT REVISED BECAUSE OF ADMINISTRATIVE FINALITY

When SSA determined the payment amounts for 156 beneficiaries in our sample, the
                                      10
benefits were incorrectly calculated. In most cases, these calculations were incorrect
because the beneficiaries’ earnings records contained earnings which were too high.
However, when SSA staff discovered these calculation errors, they invoked
administrative finality and did not revise the benefits. These 156 beneficiaries were
paid about $495,666 more in OASDI benefits than they otherwise would have been




8
  For the purposes of our audit, we used the Primary Insurance Amounts or the Original Benefit Amounts
in our calculations. These amounts may have been more than what was actually paid in benefits to the
individuals (for example, benefits are reduced when a beneficiary elects to receive retirement benefits
prior to full retirement age). For more information about our calculations, see Appendix C.
9
 These 20 beneficiaries were entitled to two benefits. In each case, if one of the benefits was revised
downward, the other would have increased by the same amount. Therefore, the total amount of benefits
paid was unaffected by administrative finality.
10
  We did not determine whether SSA staff applied administrative finality in accordance with the Agency’s
policies.
Page 4 - The Commissioner

paid if the errors had not occurred. 11 Further, because the ongoing benefits were not
revised for 91 of these beneficiaries, we estimate they will be paid an additional
$175,533 in the future. 12

For example, in January 1982, SSA staff calculated the retirement benefits due a
62 year old beneficiary. In 1988, the Agency removed earnings that were incorrectly
posted to his earnings record for 1981. The amount of benefits he was paid would
have been less had his actual earnings been used when the benefits were calculated.
However, the Agency invoked administrative finality and the benefits were not revised.
As a result, we estimate SSA paid this beneficiary about $6,874 more in benefits over
25 years (through September 2006), and those benefits will not be recovered. In
addition, we estimate he will be paid about $1,212 more in the future because of this
calculation error.

OPPORTUNITIES TO REVISE BENEFITS

SSA had the opportunity to reopen and revise the benefit determinations for 40 of the
156 beneficiaries within the 4-year time period allowed under administrative finality. In
each case, we found the Agency corrected the beneficiaries’ earnings records (i.e.,
removed the erroneous earnings) within 4 years of the dates that SSA calculated the
benefit amounts. Had the Agency reopened the benefit determinations when the
earnings records were corrected, the benefits could have been revised. As a result, the
Agency could have assessed about $85,186 in recoverable overpayments to these
40 beneficiaries. 13 In addition, we estimate the Agency could have avoided paying
these beneficiaries about $40,659 in ongoing payments.

For example, in April 1991, SSA staff calculated the retirement benefits for a
beneficiary. In 1994, the Agency corrected the beneficiary’s earnings record by
removing earnings that were incorrectly posted for 1990. Although the earnings record
was corrected within the 4-year administrative finality period, the benefits (which were
based upon the incorrect earnings) were not recalculated until 1 year later. As a result,
staff invoked administrative finality and the benefits were not revised. Had SSA revised
the benefits, the Agency would have been able to pursue recovery of $1,368, and
would have avoided paying about $846 in ongoing payments.


11
   Of these 156 beneficiaries, 27 were also eligible for Supplemental Security Income (SSI). SSI
payments are administered by SSA to eligible individuals based on need (The Social Security Act § 1602,
42 U.S.C. § 1381a). It is possible that, had SSA revised their OASDI benefits, the additional $93,593 we
estimate they received because of administrative finality would have been paid under the SSI program
instead.
12
   For the remaining 65 beneficiaries, SSA stopped paying the higher benefit amounts for reasons such as
death or the conversion of benefits from disability to retirement at full retirement age.
13
  Projecting these results to the population, we estimate the Agency could have assessed about
$24 million in recoverable overpayments to about 11,341 beneficiaries had SSA revised the payment
determinations when the earnings records were corrected. For the remaining 116 cases, SSA did not
reopen and revise the payment determinations because the administrative finality time period had expired
by the time the errors were discovered.
Page 5 - The Commissioner

In April 2007, the OIG initiated an audit to assess whether SSA reopens and revises
benefit determinations when erroneous earnings are removed from the beneficiaries’
earnings records.

IMPACT OF ADMINISTRATIVE FINALITY MAY HAVE BEEN UNDERSTATED

Our estimates on the impact of administrative finality on the OASDI program may be
understated because of (1) the limited documentation available to us, and (2) the
methodology we used to identify our population. For 99 of the 275 beneficiaries in our
sample (36 percent), we were unable to quantify the additional amounts paid because
of administrative finality. Specifically, there was no documentation available regarding
                                                  14
why the Agency applied administrative finality. However, it is possible that SSA
correctly calculated the benefits for some of these beneficiaries, and the benefit records
were incorrectly coded with the administrative finality indicator.

Our audit population included 77,969 OASDI beneficiaries who were receiving benefits
as of June 2005 and whose benefit records contained the administrative finality
indicator. We only included beneficiaries who were receiving benefits at that time. For
example, our population did not include any beneficiaries who were deceased as of
June 2005 and whose benefits prior to their deaths had been subject to administrative
finality. Further, it is possible that SSA invoked administrative finality for other
beneficiaries, but did not place the indicator on their benefit records. 15

CONCLUSION AND RECOMMENDATION

Based on our analysis, we estimate that SSA’s administrative finality rules cost the
OASDI program about $190 million. We recognize that SSA established the rules, in
part, to help protect beneficiaries from hardships that could result from the correction of
Agency errors. However, OASDI beneficiaries should be paid the benefits they were
intended to receive based on the formulas provided in the Social Security Act. We
believe that, when SSA discovers errors in the payments to beneficiaries, the Agency
should correct them rather than continuing the errors in future benefit payments. By
invoking administrative finality and not correcting the errors, the beneficiaries receive
extra monies that cost the OASDI trust funds millions of dollars.




14
   According to SSA’s policy, staff are required to document their rationale for invoking administrative
finality. SSA, POMS, GN 04001.080.
15
  In our 2006 audit, Benefits Paid to Dually Entitled Title II Beneficiaries (A-01-06-26004), we found
59 cases where SSA invoked administrative finality, but did not place the indicator on the benefit records.
Page 6 - The Commissioner

One of SSA’s strategic goals is to “protect the integrity of Social Security programs
through superior stewardship,” which includes preserving and carefully managing the
resources, assets and programs entrusted to the Agency. In addition, SSA strives to
“achieve sustainable solvency and ensure Social Security programs meet the needs of
current and future generations.” The Agency is responsible for evaluating legislative
and policy alternatives that have the potential to impact Social Security programs.

Given the anticipated growth of the OASDI program (from about $546 billion in 2006 to
about $950 billion by 2015) SSA should evaluate its discretionary regulations—
including administrative finality—to determine whether changes should be made that
will help ensure the long-term solvency of the Social Security programs.

Therefore, we recommend that SSA consider revisions to its rules/regulations that will
permit changes to the ongoing OASDI benefit payments whenever errors are
discovered.

AGENCY COMMENTS
SSA disagreed with our recommendation. In response to our draft report, the Agency
acknowledged that administrative finality has an impact on the OASDI trust funds, but
expressed concern that SSA “...would incur significant operational costs by not having
administrative finality.” The Agency also stated that “[t]he rules of administrative finality
are designed to foster public confidence in the Agency’s decisions…,” and that
“[c]orrecting a record more than four years in the past could cause undue hardship for
[SSA’s] beneficiaries, as well as create extensive public relations issues for the
Agency.” (For SSA’s comments, see Appendix D.)

OIG RESPONSE

We agree with SSA's statement that “[a]ny changes in the existing rules would need to
be carefully weighed to determine the potential impact…on both the beneficiaries and
the Agency.” We are disappointed that SSA disagreed with our recommendation and,
instead, decided that the Agency’s administrative finality rules should remain
unchanged without first conducting additional analysis. Not only is the decision to
continue with the status quo inconsistent with the Agency’s mantra of continuous
improvement, it impedes the Agency’s ability to optimize its efficiency.

According to SSA, the Agency established its 4-year administrative finality regulations in
1949 in part “due to the need to limit reopenings because of their serious impact on
SSA’s workloads.” SSA speculated that it would “incur significant operational costs by
not having administrative finality,” stating that our recommendation would require the
Agency to make “many additional benefit amount recalculations and readjudications.”
However, we note that SSA has automated much of the work that was—at the time the
regulations were initially adopted—performed manually by employees. The Agency
has an automated system in place which examines the earnings of every retired,
disabled and deceased worker each year to determine whether the worker’s primary
Page 7 - The Commissioner

insurance amount may be recomputed. 16 In these situations, the actual cost to the
Agency to effectuate the change in the benefit amounts after the recalculations are
performed may, in fact, be insignificant.

The Agency stated that “correcting a record more than four years in the past could
cause undue hardship for our beneficiaries.” However, our recommendation focuses
on the ongoing monthly payments and not the benefits that were paid in the past,
before the payment errors were discovered. We realize that the administrative finality
rules limit the circumstances under which the Agency will revise prior determinations.
We believe SSA should explore the possibility of making new payment
determinations—and correcting the monthly benefit amounts going forward—whenever
new information comes to surface that questions the accuracy of the amount of benefits
being paid, and revisions to the previously-issued payments are not possible because
of administrative finality.

SSA expressed concern that changing the administrative finality rules and correcting
and reducing benefit payments “may erode public trust for our Social Security
programs.” However, the Agency’s decision to not take action to correct administrative
errors when they are discovered may also have a negative impact. Because of the
Agency’s discretionary administrative finality rules, some beneficiaries are knowingly
paid more in benefits than they were intended to receive based on the formulas
provided in the Social Security Act. Public confidence in the programs may be
diminished when some individuals are paid additional benefits, while others are not.

As SSA stated, our report “does not contain any analysis or information related to the
costs to the Agency” that would result from a change in policy. We recognize that
additional factors need to be considered before SSA can determine whether revisions
are appropriate. In light of the millions of trust fund dollars that could be saved, we




16
   20 CFR § 404.285. SSA uses its Automatic Earnings Reappraisal Operation to reexamine records of
every entitled person to determine if a benefit increase is due. According to SSA, “the principal objective
of [this system] is to ensure that all creditable earnings are considered in development of the [primary
insurance amounts].” (SSA, POMS, OS 01201.490.) The system “…automatically screens [earnings
records] that have changes in earnings information and computes the necessary changes.” (SSA, POMS,
RS 00605.560.).
Page 8 - The Commissioner

encourage the Agency to reconsider our recommendation. We believe SSA should
conduct a thorough analysis to enumerate and quantify the costs that may result before
concluding whether or not changes should be made to the administrative finality rules.




                                              Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Scope, Methodology and Sample Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
CY       Calendar Year
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
U.S.C.   United States Code
                                                                       Appendix B

Related Office of the Inspector General Reports
We have issued several reports that discussed the Social Security Administration’s
(SSA) rules of administrative finality in the Supplemental Security Income (SSI)
program. In total, we estimated that about $263 million in SSI payments will not be
recovered because of the Agency’s administrative finality rules.

Missing SSNs
                         In September 2002, we issued a report, Impact on the Social
                         Security Administration’s Programs When Auxiliary
Beneficiaries Do Not Have Their Own Social Security Numbers (A-01-02-22006). In
this audit, we found 53 cases in which SSA did not consider the individuals’ Old-Age,
Survivors and Disability Insurance (OASDI) benefits when calculating their SSI eligibility
because their Social Security numbers (SSN) were missing from their OASDI benefit
records. In total, these individuals received $1.17 million that would not have been paid
if SSA had considered their OASDI benefits when the Agency calculated their SSI
payments. However, because of SSA’s rules of administrative finality, $723,396 of the
$1.17 million was not recorded as overpayments and recovery was not pursued.

SSI Fugitive Felon    In September 2003, we issued a report, Assessment of the
Project               Supplemental Security Income Fugitive Felon Project
                      (A-01-03-23070). In this audit, we found that SSA did not
recover about $137.8 million in SSI payments issued to fugitives who had outstanding
warrants because the Agency invoked its administrative finality rules.

To address discrepancies in the application of administrative finality with regard to
fugitive ineligibility, we recommended that SSA provide guidance, training and oversight
of administrative finality decisions to ensure the rules are invoked uniformly to all
fugitives. The Agency agreed and issued new procedural instructions which included
information about administrative finality rules as they relate to fugitive determinations.
In addition, SSA provided refresher training via a nationwide video broadcast in
September 2003, which included reminders about the application of administrative
finality when revising payments to fugitives.

Incorrect SSNs            In November 2003, we issued a report, Impact on the Social
                          Security Administration’s Programs When Auxiliary
                          Beneficiaries Have Incorrect Social Security Numbers
(A-01-03-33020). In this audit, we found 13 cases in which SSA did not consider the
auxiliary beneficiaries’ OASDI benefits when calculating their SSI eligibility because
their SSNs were incorrectly recorded on their OASDI benefit records. In total, these
individuals received $448,275 that would not have been paid if SSA had considered




                                           B-1
their OASDI benefits when the Agency calculated their SSI payments. However, as a
result of SSA’s administrative finality rules, $219,111 of the $448,275 was not recorded
as overpayments and recovery was not pursued.

                          In April 2005, we issued a report, Disabled Supplemental
Disabled SSI              Security Income Recipients with Earnings (A-01-04-14085).
Recipients with
Earnings
                          Although we estimated that $12.4 million was overpaid to about
                          11,880 recipients because SSA did not previously consider all
of the recipients’ earnings when calculating their SSI payment amounts, we also found
that additional SSI payments were not recorded as overpayments because of the
Agency’s administrative finality rules. Specifically, we estimated that the earnings
discrepancies for about 61,380 recipients would have resulted in an additional
$74.7 million in overpayments were it not for the Agency’s administrative finality rules.
We also estimated that about $8.1 million to about 11,880 SSI recipients were not paid
because administrative finality was invoked and their SSI records were not revised.

                        In July 2005, we issued a report, Social Security
SSA’s
Administrative Finality Administration’s Administrative Finality Rules (A-01-04-24024).
Rules                   In this audit, we estimated that $48.7 million in SSI payments
                        to about 7,757 individuals were not assessed as overpayments
because of administrative finality.

Direct Deposits for        In February 2007, we issued a draft report, Direct Deposits for
Multiple Title XVI         Multiple Title XVI Recipients into the Same Bank Account
Recipients                 (A-02-06-25141). We found that SSA was unaware of the
                           changes in living arrangements for about 148 recipients. We
estimated these changes would have resulted in about $819,812 in overpayments if the
previously issued SSI payments had been reopened and revised. However, because of
administrative finality, the funds will not be recovered.




                                           B-2
                                                                                     Appendix C

Scope, Methodology and Sample Results
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies and procedures.
   Reviewed prior Office of the Inspector General reports.
   Obtained a file from SSA of 77,969 Old-Age, Survivors and Disability Insurance
    (OASDI) beneficiaries who had administrative finality annotated on their records and
    were receiving benefits as of June 2005. From this file, we selected a random
    sample of 275 beneficiaries. For each sample case, we:
     1. reviewed available information, including electronic data on the Master
        Beneficiary Record and Master Earnings File, and paper documentation in the
        claims folders;
     2. calculated the amount of additional OASDI funds SSA paid to beneficiaries
                                                                                  1
        because administrative finality was invoked and benefits were not revised; and
     3. calculated the amount of additional OASDI funds SSA will continue to pay in the
        future related to the errors the Agency did not correct because of administrative
                  2
        finality.

We performed our audit in Boston, Massachusetts between November 2006 and
February 2007. We tested the data obtained for our audit and determined it to be
sufficiently reliable to meet our audit objective. The principal entities audited were the
Office of Income Security Programs under the Deputy Commissioner for Disability and
Income Security Programs and SSA’s Field Offices and Program Service Centers under
the Deputy Commissioner for Operations. We conducted our audit in accordance with
generally accepted government auditing standards.




1
  For the purposes of our audit, we used the Primary Insurance Amounts or the Original Benefit Amounts
in our calculations. These amounts may have been more than what was actually paid in benefits to the
individuals (for example, benefits are reduced when a beneficiary elects to receive retirement benefits
prior to full retirement age).
2
 We assumed the ongoing amounts will continue until: (1) the disability beneficiaries attain full retirement
age and SSA makes new payment determinations, or (2) the beneficiaries die. For our estimates, we
used the life expectancies as reported by the Center for Disease Control (National Vital Statistics Report,
Vol. 54, No. 14, Tables 2 and 3, April 19, 2006).


                                                    C-1
SAMPLE RESULTS
Table 1: Population and Sample Size
Population                                                                               77,969
Sample Size                                                                                275


Table 2: OASDI Funds SSA Will Not Recover
                                                                 Number of
Because Administrative Finality Was Invoked and                                      Dollars
                                                                Beneficiaries
Benefits Were Not Revised
Sample Results                                                              156       $495,666
Point Estimate                                                           44,230    $140,533,069
Projection Lower Limit                                                   40,235     $86,796,793
Projection Upper Limit                                                    48,140   $194,269,346
Note: All projections were calculated at the 90-percent confidence level.


Table 3: Cases in Table 2 that SSA could have
corrected if the payment determinations were                     Number of
                                                                                     Dollars
reopened when errors were discovered on the                     Beneficiaries
beneficiaries’ earnings records
Sample Results                                                               40        $85,186
Point Estimate                                                           11,341     $24,152,287
Projection Lower Limit                                                    8,710     $11,572,746
Projection Upper Limit                                                    14,426    $36,731,828
Note: All projections were calculated at the 90-percent confidence level.


Table 4: Cases in Table 2 that SSA did not correct
                                                                 Number of
because the administrative finality reopening period                                 Dollars
                                                                Beneficiaries
expired
Sample Results                                                              116       $410,480
Point Estimate                                                           32,889    $116,380,782
Projection Lower Limit                                                   28,998     $63,607,370
Projection Upper Limit                                                    36,878   $169,154,194
Note: All projections were calculated at the 90-percent confidence level.


Table 5: OASDI Funds SSA Will Continue to Pay
                                                                 Number of
Because Administrative Finality Was Invoked and                                      Dollars
                                                                Beneficiaries
Benefits Were Not Revised
Sample Results                                                               91       $175,533
Point Estimate                                                           25,801     $49,767,698
Projection Lower Limit                                                   22,146     $26,281,950
Projection Upper Limit                                                    29,669    $73,253,446
Note: All projections were calculated at the 90-percent confidence level.



                                                   C-2
                  Appendix D

Agency Comments
                                 SOCIAL SECURITY

MEMORANDUM


Date:      June 19, 2007                                                Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “Administrative Finality in the
           Old-Age, Survivors and Disability Insurance Program” (A-01-07-27029)—
           INFORMATION

We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
content and recommendation are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

Attachment:
SSA Response




                                                D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "ADMINISTRATIVE FINALITY IN THE OLD-AGE, SURVIVORS AND
DISABILITY INSURANCE PROGRAM" (A-01-07-27029)


Thank you for the opportunity to review and comment on the subject draft report.
Administrative finality is the principle that the Commissioner's determinations of eligibility for
payment should be final and binding on both parties (the Agency and beneficiary) after a
reasonable period of time. It functions like a statute of limitations on both the beneficiary and
the Agency. The rules of administrative finality are designed to foster public confidence in the
Agency’s decisions by limiting the circumstances in which the Agency may change a decision
that has previously been rendered. The rules also benefit the Agency in that it is protected from
the administrative difficulties associated with having to accommodate every request to change
decisions on claims for benefits, regardless of how far in the past the decision took place, unless
our regulations or the law provide an exception.

While the report provides information, and we agree, that the rules of administrative finality have
an impact on the Old-Age and Survivors and Disability Insurance (OASDI) Trust Funds, we have
a major concern that is not addressed in the report. Specifically, the report does not contain any
analysis or information related to the cost to the Agency of making the many additional benefit
amount recalculations and readjudications that would result from OIG’s recommendation. We
believe the Agency would incur significant operational costs by not having administrative
finality. This, in our opinion, would not advance the Agency’s current strategic goal “to protect
the integrity of Social Security programs through superior stewardship.” Our response to the
recommendation and a technical comment are provided below.

Recommendation

The Social Security Administration (SSA) should consider revisions to its rules and regulations
that will permit changes to the ongoing OASDI benefit payments whenever errors are discovered.

Response

We disagree. As noted above, ongoing readjudication of claims would place an administrative
burden on the Agency’s resources, as well as impact the public's reliance on the government's
decision. Our regulations state that four years is a reasonable time limit for us to identify and
correct any error on our records. Correcting a record more than four years in the past could cause
undue hardship for our beneficiaries, as well as create extensive public relations issues for the
Agency. We are concerned that making decisions to correct and reduce beneficiary payments
beyond the four year time span may erode public trust for our Social Security
programs. Any changes in the existing rules would need to be carefully weighed to determine the
potential impact of any changes on both the beneficiaries and the Agency. At this time we do not




                                                D-2
agree that it would be in the Social Security program’s best interest to perform ongoing OASDI
benefit recalculations, as to do so would require additional administrative resources and/or the
deferral of other Agency work.

Finally, Section 205(c) of the Social Security Act (and implementing regulations at 20 CFR
404.820ff) limits the circumstances in which earnings records from past years may be revised
downward. This, in turn, may limit the ability of SSA in many cases to make the sorts of
downward adjustments in benefit amounts that are intended in the recommendation. It may be
that, in the absence of a statutory change to section 205(c), the impact of the recommendation
with respect to SSA’s regulatory administrative finality policy may be limited.

[SSA also provided a technical comment.]




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

   Jeffrey Brown, Audit Manager, (617) 565-1814

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

   Frank Salamone, Senior Auditor

   Melinda Tabicas, Senior Auditor

   David York, Program Analyst


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-07-27029.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
